Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   MEDICARE COMPLIANCE
         REVIEW OF
    HEARTLAND REGIONAL
MEDICAL CENTER FOR CALENDAR
    YEARS 2010 AND 2011


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                      December 2013
                                                      A-07-12-01120
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

  Heartland Regional Medical Center did not fully comply with Medicare requirements
  for billing inpatient and outpatient services, resulting in net overpayments of
  approximately $282,000 over 2 years.


WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Heartland Regional Medical Center
(Heartland) complied with Medicare requirements for billing inpatient and outpatient services on
selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

Heartland is a 328-bed acute care hospital located in St. Joseph, Missouri. Medicare paid
Heartland approximately $231 million for 17,934 inpatient and 303,627 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

Our audit covered $2,886,744 in Medicare payments to Heartland for 194 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 131
inpatient and 63 outpatient claims, with dates of service in CYs 2010 and 2011 (audit period).

WHAT WE FOUND

Heartland complied with Medicare billing requirements for 128 of the 194 inpatient and
outpatient claims we reviewed. However, Heartland did not fully comply with Medicare billing
requirements for the remaining 66 claims, resulting in net overpayments of $281,997 for the
audit period. Specifically, 42 inpatient claims had billing errors, resulting in overpayments of
$270,037, and 24 outpatient claims had billing errors, resulting in net overpayments of $11,960.



Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                    i
These errors occurred primarily because Heartland did not have adequate controls to prevent the
incorrect billing of Medicare claims within the selected risk areas that contained errors.

WHAT WE RECOMMEND

We recommend that Heartland:

    •   refund to the Medicare contractor $281,997, consisting of $270,037 in overpayments for
        42 incorrectly billed inpatient claims and $11,960 in net overpayments for 24 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Heartland concurred in part with our first
recommendation and described actions that it had taken to address our second recommendation.

Heartland disagreed with our findings on 40 inpatient claims, consisting of $260,787 in
questioned costs, in which we found that Heartland should have billed the claims as outpatient or
outpatient with observation services. Heartland stated that we (that is, our medical review
contractor) “… based their review on the time the [physician’s] order was placed in the
computer.” Heartland also stated that our medical review contractor did not consider individual
factors related to the ability to safely care for these patients in an outpatient setting and that we
“… did not give sufficient weight to the possibility of adverse events and scarcity of resources in
a rural setting.”

For the remaining 26 claims, Heartland concurred with our findings and said that it had either
refunded or would refund a total of $21,210.

After reviewing Heartland’s comments, we maintain that our findings and recommendations are
valid. We used an independent medical review contractor to determine whether the 40 inpatient
claims that the Hospital disagreed with met medical necessity requirements. The contractor
examined all of the medical records and documentation submitted and carefully considered this
information to determine whether Heartland billed the inpatient claims according to Medicare
requirements. Based on the contractor’s conclusions, we determined, and continue to believe,
that the 40 inpatient claims should have been billed as outpatient or outpatient with observation
services.




Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                     ii
                                                    TABLE OF CONTENTS


INTRODUCTION .........................................................................................................................1

      Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          The Medicare Program ..................................................................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Outpatient Prospective Payment System ........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................2
          Medicare Requirements for Hospital Claims and Payments .........................................2
          Heartland Regional Medical Center ..............................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................3

      Billing Errors Associated With Inpatient Claims ...................................................................4
            Incorrectly Billed as Inpatient........................................................................................4
            Manufacturer Credits for Replaced Medical Devices Not Reported .............................5

      Billing Errors Associated With Outpatient Claims ................................................................5
            Incorrectly Billed as Outpatient ....................................................................................5
            Manufacturer Credit for a Replaced Medical Device Not Reported .............................5
            Incorrectly Billed Healthcare Common Procedure Coding System Codes or
               Number of Units ......................................................................................................6

RECOMMENDATIONS ...............................................................................................................6

AUDITEE COMMENTS...............................................................................................................6

OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................................7

APPENDIXES

      A: Audit Scope and Methodology .........................................................................................8

      B: Results of Review by Risk Area .....................................................................................10

      C: Auditee Comments .........................................................................................................11




Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                                                                 iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Heartland Regional Medical Center (Heartland) complied
with Medicare requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000. Under the OPPS, Medicare pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification (APC). CMS uses Healthcare Common Procedure Coding System




Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                      1
(HCPCS) codes and descriptors to identify and group the services within each APC group. 1 All
services and items within an APC group are comparable clinically and require comparable
resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient same-day discharges and readmissions,

    •   inpatient transfers,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   inpatient and outpatient claims paid in excess of charges,

    •   outpatient claims billed before and during inpatient stays,

    •   outpatient claims billed with modifiers,

    •   outpatient claims billed for Doxorubicin Hydrochloride,

    •   outpatient claims billed for surgeries with units greater than one, and

    •   outpatient claims billed for Lupron injections.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).



1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.



Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                                     2
Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).

Heartland Regional Medical Center

Heartland is a 328-bed acute care hospital located in St. Joseph, Missouri. Medicare paid
Heartland approximately $231 million for 17,934 inpatient and 303,627 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $2,886,744 in Medicare payments to Heartland for 194 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 131
inpatient and 63 outpatient claims with dates of service in CYs 2010 and 2011 (audit period).
We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 46
claims to focused medical review to determine whether the services were medically necessary. This
report focuses on selected risk areas and does not represent an overall assessment of all claims
submitted by Heartland for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                              FINDINGS

Heartland complied with Medicare billing requirements for 128 of the 194 inpatient and
outpatient claims we reviewed. However, Heartland did not fully comply with Medicare billing
requirements for the remaining 66 claims, resulting in net overpayments of $281,997 for the
audit period. Specifically, 42 inpatient claims had billing errors, resulting in overpayments of
$270,037, and 24 outpatient claims had billing errors, resulting in net overpayments of $11,960.
These errors occurred primarily because Heartland did not have adequate controls to prevent the
incorrect billing of Medicare claims within the selected risk areas that contained errors. For the
results of our review by risk area, see Appendix B.




Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                      3
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

Heartland incorrectly billed Medicare for 42 of 131 selected inpatient claims, which resulted in
overpayments of $270,037.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)).

According to chapter 1, § 10, of the CMS Benefit Policy Manual, factors that determine whether
an inpatient admission is medically necessary include:

    •   the severity of the signs and symptoms exhibited by the patient;

    •   the medical predictability of something adverse happening to the patient;

    •   the need for diagnostic studies that appropriately are outpatient services (i.e., their
        performance does not ordinarily require the patient to remain at the hospital for 24
        hours or more) to assist in assessing whether the patient should be admitted; and

    •   the availability of diagnostic procedures at the time when and at the location
        where the patient presents.

The Benefit Policy Manual also states that “[a]dmissions of particular patients are not covered or
noncovered solely on the basis of the length of time the patient actually spends in the hospital.”

For 40 of the 131 selected inpatient claims, Heartland incorrectly billed Medicare Part A for
beneficiary stays that it should have billed as outpatient or outpatient with observation services.
Our independent medical reviewer determined that inpatient admission was not medically
necessary for these beneficiaries. For example, in one case, the medical reviewer stated, “[t]he
services planned at the time of admission … were of the intensity that could have been safely
provided at the observation level.”

These errors occurred because Heartland did not have effective controls to ensure that it billed
Medicare correctly. As a result of these errors, Heartland received overpayments of $260,787. 2




2
 Heartland may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our report.



Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                                    4
Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the cost of a device, or (3) the provider receives a credit equal to 50 percent or more of
the cost of the device (42 CFR § 412.89). The Manual states that to bill correctly for a
replacement device that was provided with a credit, the hospital must code its Medicare claims
with a combination of condition code 49 or 50, along with value code “FD” (chapter 3, § 100.8).

For 2 of the 131 selected inpatient claims, Heartland received a reportable medical device credit
from a manufacturer but did not adjust its claims with the proper condition and value codes to
reduce payments as required. Heartland stated that these overpayments occurred due to
inadequate controls. As a result of these errors, Heartland received overpayments of $9,250.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Heartland incorrectly billed Medicare for 24 of 63 selected outpatient claims, which resulted in
net overpayments of $11,960.

Incorrectly Billed as Outpatient

Federal regulations state: “The prospective payment system provides a payment amount for
inpatient operating costs, including…. Preadmission services otherwise payable under Medicare
Part B furnished to a beneficiary on the date of the beneficiary’s admission to the hospital and
during the 3 calendar days [72 hours] immediately preceding the date of the beneficiary’s
admission to the hospital….” (42 CFR § 412.2(c)(5)). The Manual states that Medicare Part A
covers certain items and nonphysician services furnished to inpatients; consequently, the IPPS
rate covers these services (chapter 3, § 10.4).

For 9 of the 63 selected outpatient claims, Heartland incorrectly billed Medicare Part B for
outpatient services provided within 72 hours before or during inpatient stays. These services
should have been included on Heartland’s inpatient (Part A) claims to Medicare. Heartland
stated that these overpayments occurred due to inadequate controls. As a result of these errors,
Heartland received overpayments of $5,061.

Manufacturer Credit for a Replaced Medical Device Not Reported

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the




Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                     5
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device. 3

For 1 of the 63 selected outpatient claims, Heartland received a manufacturer credit for a
replaced device but did not report the “FB” modifier and reduced charges on its claim.
Heartland stated that this overpayment occurred due to inadequate controls. As a result of this
error, Heartland received an overpayment of $4,347.

Incorrectly Billed Healthcare Common Procedure Coding System Codes or
Number of Units

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act, § 1833(e)). The
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). In addition, the Manual states: “The definition of service
units … is the number of times the service or procedure being reported was performed”
(chapter 4, § 20.4).

For 14 of the 63 selected outpatient claims, Heartland submitted claims to Medicare with
unsupported HCPCS codes (10 claims), incorrect HCPCS codes (3 claims), or with an incorrect
number of units (1 claim). Heartland stated that these errors occurred due to human error. As a
result of these errors, Heartland received net overpayments of $2,552.

                                       RECOMMENDATIONS

We recommend that Heartland:

    •   refund to the Medicare contractor $281,997, consisting of $270,037 in overpayments for
        42 incorrectly billed inpatient claims and $11,960 in net overpayments for 24 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                                       AUDITEE COMMENTS

In written comments on our draft report, Heartland concurred in part with our first
recommendation. Heartland also described actions that it had taken to address our second
recommendation and stated that it would continue to use the results of this audit as guidelines for
further process improvement and strengthening of its controls.

Heartland disagreed with our findings on 40 inpatient claims, consisting of $260,787 in
questioned costs, in which we found that Heartland should have billed the claims as outpatient or
outpatient with observation services. Heartland stated that we (that is, our medical review

3
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).



Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                               6
contractor) “… based their review on the time the [physician’s] order was placed in the
computer.” Heartland noted that there was a lag in time for information from a physician to
appear in a patient’s chart.

Heartland also stated that our medical review contractor did not consider individual factors
related to the ability to safely care for these patients in an outpatient setting and that we “… did
not give sufficient weight to the possibility of adverse events and scarcity of resources in a rural
setting.” In this regard, Heartland stated that “[i]t was the professional judgment of three
physicians … that care for these patients could not safely be provided in any less restrictive
environment, and that inpatient care was medically necessary and appropriate, and was
anticipated to be necessary for greater than 24 hours.” In addition, Heartland noted that
“[c]ontrols have been improved since 2010 to included dedicated [emergency department]
managers who are present in the facility rather than on-call for weekends.”

For the remaining 26 claims, Heartland concurred with our findings and said that it had either
refunded or would refund a total of $21,210.

Heartland’s comments are included in their entirety as Appendix C.

                      OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Heartland’s comments, we maintain that our findings and recommendations are
valid.

Our independent medical review contractor did not base its determinations solely upon the
information that was available when the physician’s order was placed in the computer. Instead,
our contractor examined all of the medical records and documentation submitted and carefully
considered this information to determine whether Heartland billed the inpatient claims according
to Medicare requirements.

With respect to Heartland’s comments that our medical review contractor did not consider
factors related to the setting where the services were performed, our contractor advised us that
the scarcity of resources in a rural setting did not impact its medical determination regarding the
reasonableness of inpatient status versus the status as outpatient or outpatient with observation
services. To this point, we note that although observation services are performed in an outpatient
setting, these services are conducted in the hospital, thereby using the same resources.

Based on the contractor’s conclusions, we determined, and continue to believe, that the 40
inpatient claims should have been billed as outpatient or outpatient with observation services.




Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                        7
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $2,886,744 in Medicare payments to Heartland for 194 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 131
inpatient and 63 outpatient claims with dates of service in CYs 2010 and 2011 (audit period).

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 46
claims to focused medical review to determine whether the services were medically necessary.

We limited our review of Heartland’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Heartland for Medicare reimbursement.

We conducted our fieldwork at Heartland in August 2012 and April 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted Heartland’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for the audit period;

    •   obtained information on known credits for replaced medical devices from the device
        manufacturers for the audit period;

    •   used computer matching, data mining, and other data analysis techniques to identify
        claims potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 194 claims (131 inpatient and 63 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

    •   reviewed the itemized bills and medical record documentation provided by Heartland to
        support the selected claims;



Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                     8
    •   requested that Heartland conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed Heartland’s procedures for submitting Medicare claims;

    •   submitted Heartland’s medical records for 46 claims to an independent medical review
        contractor to determine whether the claims met medical necessity requirements;

    •   discussed the incorrectly billed claims with Heartland officials to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Heartland officials on August 26, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                9
                         APPENDIX B: RESULTS OF REVIEW BY RISK AREA
                                                                                                  Claims
                                                                                                   With
                                                                                Value of          Under /         Value of
                                                              Selected          Selected           Over-          Net Over-
                     Risk Area                                Claims            Claims           payments         payments
Inpatient

Short Stays                                                            44          $306,502                40        $260,787
Manufacturer Credits for Replaced Medical
                                                                         3            85,579                 2              9,250
Devices
Claims Billed With High Severity Level
                                                                       39         1,543,537                  0                 0
Diagnosis-Related Group Codes
Claims Paid in Excess of Charges                                       35            721,626                 0                 0

Same-Day Discharges and Readmissions                                     8            80,962                 0                 0

Transfers                                                                2            28,591                 0                 0

 Inpatient Totals                                                     131        $2,766,797                42        $270,037


Outpatient

Claims Billed Before and During Inpatient Stays                        18            $35,008                 9             $5,061
Manufacturer Credits for Replaced Medical
                                                                         1              6,537                1              4,347
Devices
Claims Billed With Modifiers                                           32             35,137               14               2,552

Claims Paid in Excess of Charges                                         5            22,781                 0                 0

Claims Billed for Doxorubicin Hydrochloride                              5            14,412                 0                 0
Claims Billed for Surgeries With Units Greater
                                                                         1              4,839                0                 0
Than One
Claims Billed for Lupron Injections                                      1              1,233                0                 0

 Outpatient Totals                                                     63          $119,947                24         $11,960


 Inpatient and Outpatient Totals                                      194        $2,886,744                66        $281,997

     Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
     outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
     billing errors we found at Heartland. Because we have organized the information differently, the information in the
     individual risk areas in this table does not match precisely with this report’s findings.



     Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                                  10
                                    APPENDIX C: AUDITEE COMMENTS






              Heartland Health
             _IEALDII_aa:IIS._______,___ _   _   ___________._ _ ..____ _ _ _ __
                    Healthy Liws.
                                                                                   ----------------

             November 12, 2013


             Mr. Patrick Cogley
             Regional Inspector General for Audit Services
             Office of Audit Services, Region VII
             60 I E. 12'h St., Rm 0429
             Kansas City, MO 641 06


             RE: Report Number: A-07-12-01120


             Dear Mr. Cogley:


             Heartland Regional Medical Center ("HRMC" or "Hospital") appreciates the opportunity to
             review and respond to the U.S. Department of Health and Human Services, Office of Inspector
             General's ("OIG") draft rep011 entitled Medicare Compliance Review of Heartland Regional
             Medical Center for Calendar Years 2010 and 2011. HRMC is committed to complying with all
             regulations and standards governing federal health care programs, improving internal controls
             and proactively auditing and monitoring our processes and procedures to minimize the risk of
             errors.

             Overall, process improvements and education initiatives had already taken place in HRMC' s
             Care Management, coding and billing departments before the OIG auditors arrived to review the
             nearly three-year old claims. In addition, the aged billing and coding system has been replaced
             which included a process redesign with the installation of the new system which further
             improved and strengthened controls.

             HRMC's responses to the OIG's specifi c findings and recommendations arc listed on the
             following pages. Unless otherwise stated, HRMC has accepted the OIG's findings and the
             overpayment amounts for the incorrectly billed claims have been (or are in the process of being)
             refunded through our Medicare Administrati ve Contractor (WPS).




Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                                 11
             OIG FINDING # I:
             Incorrectly Billed as Inpatient
             For 40 of 131 selected inpatient cl aims, HRMC incorrectly billed Medicare Pari A beneficiary
             stays that should have been billed as outpatient or outpatient with observation services. The OIG
             independent medical reviewer detem1 ined that inpatient admission was not medically necessary
             for these beneficiaries. These errors occurred because HRMC did not have effecti ve controls to
             ensure that it billed Medicare correctly. As a result of these errors, the Hospital received
             overpayments totaling $260,787.


             I-IRMC RESPONSE # I:
             HRMC respectfully disagrees with O IG finding # I that the services could have been
             appropriately furnished as o utpatient services safely for these patients, taking into account
             individual circumstances. The scope of the aud it was limited to patients who an·ived at the
             hospital on Friday and deparied on Monday. In these cases it was the pro fessional medical
             opinion of the Emergency Department Provider and the Attending Provider that these patients
             required an inpatient level of care and were expected to need that care for greater than 24 hours.
             who then ordered admissio n.

             lnterqual is used as a screening tool by hospital Care Managers to review admission
             dctenninations in order to assure appropri ate documentation fo r admission is entered into the
             medical record. As a screening tool, however, it cannot quantify the medical decision making
             and risks to the patient. Because the process at the time required the Care Manager to request
             that the physician cancel the admission order until secondary review was completed, they did so;
             these patients' admissions were then forwarded for a second level review and the admission
             order was cancelled pending completion of that review.

             Upon receipt of the confirmation from the secondary Provider reviewer that the admission was
             medically necessary, the admi ssion was reinstated . Because the attendi ng physician is not
             affected by the patient's inpatient or outpatient status they allowed the changes to status. This
             process is currently under review with an Enterprise Process Improvement Initiative which
             already includes weekend o n-site coverage by care managers rather than on-call co verage.
             However, this does not negate the fact that three physicians agreed that the patients needed
             inpatient care.

             The OIG auditor based their review on the time the order was placed in the computer. Because
             of the age o f these claims, the computerized physician order entry (CPOE) had not been
             implemented. There was a lag in time between the physici ans communicating, relaying the
             intonnation to a nurse, and then the in fonnation actually appearing on the chart. Further, the
             reviewers di d not consider individual factors related to the abili ty to safely care for these patients
             in an outpat ient setting, including the unavailabi lity of appropriate outpatient resources and sub­
             acute care in this rural setting.

             [twas the professional judgment of tlu·ee physicians (ED Provider, Attending Provider, and
             Second Level Provider Reviewer) that care for these patients could not safely be provided in any
             less restrictive environment, and that i11paticnt care was medical ly necessary and appropriate, and



                                    Heartland Reg1onal Medtcal Ccnlt-r, 5325 Fanton Street. St Joseph. Mo. 64506

                                                                                                                   Page 2 of 5




Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                                                  12
             was anti cipated to be necessary fo r greater than 24 hours. The OIG auditor d id not give sufficient
             weight to the possibility of adverse events and scarcity of resources in a rural setting. Had they
             reviewed the care management and social services notes they would have seen that they could
             not anange new home ox ygen and skilled or nursing home admissions on the weekends as these
             types of providers do not st aff for 2417 admissions in this setting.

             Contro ls have been improved since 20 I 0 to include dedicated ED Care Managers who are
             present in the facility rather than on-call for weekends.




             OIG FIN DING #2:
             Inpatient Manufacturer Credit for Replaced Medical Device Not Reported
             For 2 of the 13 1 sel ected inpatient claims. HRMC received a rep01table medi caJ device cred it
             from a manufacturer but did not adjust its claims with the proper condition and value codes to
             reduce payments as required. HRMC stated that these o verpayments occurred due to inadequate
             controls. As a result of these errors, the Hospital received o verpayments totaling $9,250.

             HRMC RESPONSE #2:
             HRMC co ncurs with O IG find ing #2 and detennined there was a break in the very complex
             manual process. At the time of these transactions, HRMC relied on the manufacturers to relay
             the amount of credit, as HRMC did not know the dollar amount which was covered under
             wananty /recall. HRMC has revised this process and now has a coder contact our billing
             department directl y to rebill.

             The o verpayment amount has been refunded and HRMC will continue to monitor and streng then
             its controls in order to assure compliance with Medi care bi lling requirements .




             OIG FINDING #3:
             Incorrectly Billed as Outpatient
             For 9 of the 63 selected outpatient claims, HRMC inconectly billed Medicare Part B for outpatient
             services provided within 72 hours before or during inpatient stays. These services should have been
             included on the Hospital's inpatient (Part A) claims io Medicare. As a result of these errors. the
             Hospital received overpayments totaling $5,06 1.

            HRM C RESPONSE #3:
            HRMC concurs with OI G findin g #3 and determi ned there was a break in the manual process of
            the old bill ing system . A completely new bill ing system has been install ed and impl emented as
            of05/20/ 13.

            The billing department is in the process of ensuri ng the o verpayment amount is refunded.
            HRMC will continue to mon ito r and strengthen its controls in order to assure compli ance with
            Med icare billing requirements.




                                   Heartland Region.1l Med ical Cemer, 5325 Faraon S!f'i'CI, St. Joseph, Mo 64506

                                                                                                                    Pagc3 ofS




Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                                                 13
             OIG FINDING #4:
             Outpatient Manufacturet· Credits for Replaced Medical Device Not Repot·ted
             For I of tJ1e 63 selected outpatient claims, HRMC received a manufactw·er credit for a replaced
             device but did not repott the "FB" modifier and reduced charges on its claims. HRMC stated
             that this overpayment occurred due to inadequate controls. As a result oftJ1is error, HRM C
             received an overpayment totali ng $4,347.


             HRMC RESPONSE #4:
             HRMC concurs with OJG finding #4 and detennincd there was a break in the very complex
             manual process. At the time of this transaction, HRMC relied on the manufacturers to relay the
             amount of credit as HRMC did not know the dollar amount which was covered under
             warranty/recall. Heartland has revised this process and now has a coder that contacts our
             billing department directly to rebill.

             The overpayment amount has been refunded and HRMC will continue to monitor and strengthen
             its controls in order to assure compliance with Medicare billing requirements.



             OIG FINDING #5:
             Incorrectly Billed Healthcare Common Procedure Coding System Codes or Number of
             Units
             For 14 of the 63 selected outpatient claims, HRMC submitted claims to Medicare with
             unsupported HCPCS codes ( I 0 claims), incorrect HCPCS codes (3 claims), or with an incorrect
             number of units (I claim) . HRMC stated that these errors occurred due to human error. As a
             result of these errors, HRMC received net overpayments of $2,552.

            HRMC RESPONSE #5:
            HRMC concurs with OIG findin g #5. It was identified tJ1at when HRMC took over St. Joe
            Oncology in mid-20 I 0, the coding was not being perfonned by a credentialed coder. As process
            errors were detected, claims were con·ected and re-submitted. HRMC 's standard process before
            the acqu isition and currently is to only employ credentialed coders in the Oncology Department.
            Since the acquisition, there was a process change where the provider coders and the faci lity
            coders are making sure the CPT codes match before sending out the claims and all staff has been
            re-educated.

            The billing department is in the process of ensuring the overpayment amount is refunded .
            HRMC will continue to monitor and strengthen its controls in order to assure compliance with
            Medicare billing requirements.




                                  l leanland Regional Medical Center, 5325 Famon Street, St Joseph, Mo. 64506

                                                                                                                Page 4of5




Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                                             14
             HRMC appreciates the opportunity to learn fi·om the fi ndings of this review. Despite the
             objection, above, HRMC recognizes its respons ibi li ties and recontlm1s its obligation to interpret
             and bill services appropriately and will conti nue to use the results of this audit as guidelines tor
             further process improvement and strengthening of o ur controls.

             If you require any additio nal infom1ation. or if I can provide any further assistance, pl ease do not
             hesitate to contact me.


             Sincerely,



                n Thuente
             Corporate Compliance Officer
             Heartland Regional Medical Center




                                   lkart land Reg1onal Mcd1ca l Center, 5325 Faraon Street, St Josq>h. Mo 64506

                                                                                                                  Page 5 of 5




Medicare Compliance Review of Heartland Regional Medical Center (A-07-12-01120)                                                 15
